APPENDIX

1a
APPENDIX A
Court of Appeal, Second Appellate District,
Division Eight—No. B305546
August 11, 2021
S269214
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________________
DAMARIS ROSALES, Plaintiff and Respondent,
v.
UBER TECHNOLOGIES, INC., Defendant and Appellant.
_________________________________________________
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

2a
APPENDIX B
Filed 4/30/21
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION EIGHT
________________________
DAMARIS ROSALES,
Plaintiff and Respondent,
v.
UBER TECHNOLOGIES, INC.,
Defendant and Appellant.
________________________
B305546
(Los Angeles County
Super. Ct. No. BC685555)
________________________
APPEAL from an order of the Superior Court of
Los Angeles County.
Amy D. Hogue, Judge.
Affirmed.
Littler Mendelson, Sophia Behnia and Andrew
M. Spurchise for Defendant and Appellant.
Gold and Michael A. Gold for Plaintiff and
Respondent.
________________________

3a
SUMMARY
Defendant Uber Technologies, Inc. moved to
compel arbitration in a case where the plaintiff,
Damaris Rosales, alleged a single cause of action for
wage violations under the Private Attorneys General
Act (PAGA, Lab. Code, § 2698 et seq.). Plaintiff was
an Uber driver under a written agreement stating she
was an independent contractor and all disputes would
be resolved by arbitration under the Federal Arbitration Act (FAA, 9 U.S.C. § 1 et seq.). The agreement
delegated to the arbitrator decisions on the enforceability or validity of the arbitration provision. The trial
court denied defendant’s motion to compel arbitration.
Defendant contends plaintiff cannot bring a
PAGA claim in court unless or until an arbitrator first
decides whether she has standing to bring a PAGA
claim—that is, whether she is an employee who can
seek penalties under PAGA on behalf of the state, or
an independent contractor who cannot. We conclude,
as has every other California court presented with
this or similar issues, that the threshold question
whether plaintiff is an employee or an independent
contractor cannot be delegated to an arbitrator. Accordingly, we affirm the trial court’s order.
FACTS
In April 2018, plaintiff filed the operative first
amended complaint. The complaint stated a representative action against defendant for penalties under
PAGA, alleging defendant violated section 216 of the
Labor Code (refusal to pay wages due).
In January 2020, after successive demurrers
were overruled, defendant brought its motion to compel arbitration. Defendant sought an order compelling plaintiff “to arbitrate the issue of her independent

4a
contractor status (i.e., whether she was properly classified as an independent contractor) under the parties’
arbitration agreement and/or questions of enforceability or arbitrability (i.e., enforcing the arbitration
agreement’s delegation clause).” Alternatively, defendant sought to enforce the waiver of representative
claims in the arbitration agreement, and to compel
plaintiff to arbitrate her individual claim.
The arbitration agreement was a part of defendant’s then-standard technology services agreement, which plaintiff executed on-line when she became a driver for defendant in March 2016. Defendant refers to this as the 2015 TSA. The parties agreed,
with irrelevant exceptions, to arbitrate all disputes
between them arising out of or related to the agreement and plaintiff’s relationship with defendant, including disputes regarding wage and hour laws. The
agreement delegated to the arbitrator the power to decide whether a dispute is arbitrable. It stated the arbitrator and not a court or judge would decide all disputes “arising out of or relating to interpretation or
application of this Arbitration Provision, including the
enforceability, revocability or validity of the Arbitration Provision or any portion of the Arbitration Provision.”
Plaintiff also agreed, to the extent permitted by
law, not to bring a representative action on behalf of
others under PAGA in any court or in arbitration. She
agreed that any claim brought as a private attorney
general would be resolved in arbitration on an individual basis only, and not to resolve the claims of others.

5a
The trial court denied defendant’s motion. The
court held that “no part of the TSA, including the delegation provision, binds the State of California, on
whose behalf [plaintiff] brings the PAGA claim.”
Defendant filed a timely notice of appeal.
DISCUSSION
1.

The Background

Before PAGA was enacted, only the state could
sue employers for civil penalties under the Labor
Code. (Kim v. Reins International California, Inc.
(2020) 9 Cal.5th 73, 80 (Kim).) “Government enforcement proved problematic,” for reasons including inadequate funding and staffing constraints. (Id. at p. 81.)
“To facilitate broader enforcement, the Legislature
enacted PAGA, authorizing ‘aggrieved employee[s]’ to
pursue civil penalties on the state’s behalf. [Citations.] ‘Of the civil penalties recovered, 75 percent
goes to the Labor and Workforce Development
Agency, leaving the remaining 25 percent for the “aggrieved employees.” ’ ” (Ibid.)
Kim explains that a PAGA claim “is legally and
conceptually different from an employee’s own suit for
damages and statutory penalties. An employee suing
under PAGA ‘does so as the proxy or agent of the state’s
labor law enforcement agencies.’ [Citation.] Every
PAGA claim is ‘a dispute between an employer and
the state.’ [Citations.] Moreover, the civil penalties a
PAGA plaintiff may recover on the state’s behalf are
distinct from the statutory damages or penalties that
may be available to employees suing for individual violations. [Citation.] Relief under PAGA is designed
primarily to benefit the general public, not the party
bringing the action. [Citations.] ‘A PAGA representa-

6a
tive action is therefore a type of qui tam action,’ conforming to all ‘traditional criteria, except that a portion of the penalty goes not only to the citizen bringing
the suit but to all employees affected by the Labor
Code violation.’ [Citation.] The ‘government entity on
whose behalf the plaintiff files suit is always the real
party in interest.’ ” (Kim, supra, 9 Cal.5th at p. 81.)
2.

The Authorities

The issue presented for our review has been resolved adversely to defendant in two cases decided
during and after briefing in this case: Provost v. YourMechanic, Inc. (2020) 55 Cal.App.5th 982 (Provost)
and Contreras v. Superior Court (2021) 61
Cal.App.5th 461 (Contreras). 1
In Provost, as here, the defendant contended an
arbitrator must first decide the threshold issue
whether the plaintiff was an independent contractor
or an employee. Until that issue is resolved in arbitration, the defendant argued, the plaintiff had no
standing to pursue a representative PAGA action, because he could not show he was an “aggrieved employee.” (Provost, supra, 55 Cal.App.5th at p. 996.)
The court rejected those assertions, following cases
that “consistently, and, in our view, properly hold that
threshold issues involving whether a plaintiff is an
‘aggrieved employee’ for purposes of a representative
PAGA-only action cannot be split into individual arbitrable and representative nonarbitrable components.”
(Ibid.)
Contreras similarly held that a PAGA plaintiff
“may not be compelled to arbitrate whether he or she
Before the opinion in Contreras was published, defendant
asked us to take judicial notice of the trial court’s order in that
case. The request for judicial notice is now moot.
1

7a
is an aggrieved employee.” (Contreras, supra, 61
Cal.App.5th at p. 477; id. at p. 472 [“PAGA claims cannot be arbitrated without state consent” (italics omitted)]; id. at p. 473 [the preliminary question whether
the petitioners were “aggrieved employees” under
PAGA “may not be decided in private party arbitration” (capitalization omitted)].)
We are not persuaded to depart from the analyses in Provost and Contreras and all the authorities
they cite. As we shall see, these authorities cogently
answer each of defendant’s arguments.
3.

Defendant’s Contentions

Defendant contends the FAA governs the arbitration provision, and under the FAA, the parties’
agreement to delegate the issue of arbitrability to the
arbitrator is enforceable. But our Supreme Court has
held the FAA does not govern a PAGA claim. (Iskanian v. CLS Transportation Los Angeles, LLC
(2014) 59 Cal.4th 348, 360 (Iskanian).)
As relevant here, Iskanian held that “an arbitration agreement requiring an employee as a condition of employment to give up the right to bring representative PAGA actions in any forum is contrary to
public policy.” (Iskanian, supra, 59 Cal.4th at p. 360.)
This is referred to as the Iskanian rule. The court further concluded “that the FAA’s goal of promoting arbitration as a means of private dispute resolution does
not preclude our Legislature from deputizing employees to prosecute Labor Code violations on the state’s
behalf. Therefore, the FAA does not preempt a state
law that prohibits waiver of PAGA representative actions in an employment contract.” (Ibid.)
Iskanian explained that “a PAGA claim lies
outside the FAA’s coverage because it is not a dispute

8a
between an employer and an employee arising out of
their contractual relationship. It is a dispute between
an employer and the state, which alleges directly or
through its agents—either the Agency or aggrieved
employees—that the employer has violated the Labor
Code.” (Iskanian, supra, 59 Cal.4th at pp. 386–387.)
Defendant contends Iskanian has been effectively overruled by the high court in Epic Systems
Corp. v. Lewis (2018) ___ U.S. ___ [138 S.Ct. 1612]
(Epic Systems), a case that reiterated the FAA’s broad
preemptive scope. Epic Systems held the FAA requires courts to enforce arbitration agreements according to their terms, including terms in an employment agreement requiring individualized arbitration
proceedings rather than class or collective action procedures. (Epic Systems, at p. ___ [138 S.Ct. at p.
1619]; id. at p. 1621 [“this much the Arbitration Act
seems to protect pretty absolutely”].) The court held
that, contrary to the plaintiff’s contention, the National Labor Relations Act does not “offer[] a conflicting command.” (Epic Systems, at p. ___ [138 S.Ct. at
p. 1619]; ibid. [“This Court has never read a right to
class actions into the NLRA.”].)
Defendant’s argument that Epic Systems rendered the Iskanian rule invalid has been made and rejected several times. For example, in Correia v. NB
Baker Electric, Inc. (2019) 32 Cal.App.5th 602 (Correia), the court explained that on federal questions,
“intermediate appellate courts in California must follow the decisions of the California Supreme Court, unless the United States Supreme Court has decided the
same question differently.” (Id. at p. 619.) Epic Systems addressed an issue “pertaining to the enforceability of an individualized arbitration requirement
against challenges that such enforcement violated the

9a
NLRA.” (Correia, at p. 619.) Iskanian, on the other
hand, “held that a ban on bringing PAGA actions in
any forum violates public policy and that this rule is
not preempted by the FAA because the claim is a governmental claim.” (Correia, at p. 619.) Epic Systems
did not consider that issue and so “did not decide the
same question differently.” (Correia, at p. 619.)
Correia describes in detail how the cause of action at issue in Epic Systems “differs fundamentally
from a PAGA claim.” (Correia, supra, 32 Cal.App.5th
at p. 619; id. at pp. 619–620.) The court concluded:
“Epic did not reach the issue regarding whether a governmental claim of this nature is governed by the
FAA, or consider the implications of a complete ban on
a state law enforcement action. Because Epic did not
overrule Iskanian’s holding, we remain bound by the
California Supreme Court’s decision.” (Correia, at p.
620; see, e.g., Provost, supra, 55 Cal.App.5th at pp.
997–998 [reaffirming the Correia analysis that Epic
Systems did not overrule Iskanian and observing our
Supreme Court reaffirmed Iskanian in ZB, N.A. v. Superior Court (2019) 8 Cal.5th 175, 185, 197]; Contreras, supra, 61 Cal.App.5th at p. 471 [agreeing that,
“even after Epic Systems, PAGA claims, which seek to
vindicate state interests, not private party agreements, are not covered by the FAA”].) We too are
bound by the Iskanian rule.
Contreras points out that while Iskanian held a
PAGA claim cannot be waived by an employment
agreement, Iskanian “did not directly address
whether an employer may contractually require a
PAGA claim to be arbitrated.” (Contreras, supra, 61
Cal.App.5th at p. 472.) But that issue, too, has been
resolved in several Court of Appeal cases holding that
“an individual PAGA plaintiff may not be required to

10a
arbitrate his or her PAGA claim.” (Contreras, at p.
472, citing cases; ibid. [“PAGA claims cannot be arbitrated without state consent” (italics omitted)].)
Defendant relies on federal district court cases
that have concluded, in other contexts, that a threshold worker classification issue must be determined by
an arbitrator where the arbitration agreement contains a delegation clause. Those cases do not apply
here because none involves a PAGA claim where the
plaintiff is the proxy or agent of the state. 2
Next, defendant tells us that even if plaintiff’s
representative claim is not subject to arbitration, the
threshold classification issue is subject to the FAA because “it is not a PAGA claim at all” but rather “a private dispute between [plaintiff and defendant] regarding the nature of their business relationship.” Contreras disposed of the same claim in a detailed discussion, concluding the question whether a plaintiff is an
“aggrieved employee” under PAGA may not be decided
in private party arbitration. (Contreras, supra, 61
Cal.App.5th at pp. 473–477.) The court characterized
the argument as “fallacious wordsmithing,” and explained: “If an arbitrator rules that petitioners are
not ‘aggrieved employees,’ there will be no remaining
PAGA claim anywhere. By virtue of an arbitration to
See Lamour v. Uber Technologies, Inc. (S.D.Fla. Mar. 1, 2017,
No.
1:16-CIV-21449-MARTINEZ/GOODMAN)
2017
U.S.Dist.Lexis 29706, at pages *29–31; Ali v. Vehi-Ship (N.D.Ill.
Nov. 27, 2017, No. 17 CV 02688) 2017 U.S.Dist.Lexis 194456, at
pages *14–15; Richemond v. Uber Technologies, Inc. (S.D.Fla.
2017) 263 F.Supp.3d 1312, 1317; Olivares v. Uber Technologies,
Inc. (N.D.Ill. July 14, 2017, No. 16 C 6062) 2017 U.S.Dist.Lexis
109348, at page *9; Sakyi v. Estee Lauder Companies, Inc.
(D.D.C. 2018) 308 F.Supp.3d 366, 381; Johnston v. Uber Technologies, Inc. (N.D.Cal. Sept. 16, 2019, No. 16-cv-03134-EMC) 2019
U.S.Dist.Lexis 161256, at pages *16–17.
2

11a
which it did not consent, the state will have lost one
of its weapons in the enforcement of California’s labor
laws. This result would be at odds with . . . several
appellate opinions . . . , e.g., Correia: ‘Without the
state’s consent, a predispute agreement between an
employee and an employer cannot be the basis for
compelling arbitration of a representative PAGA
claim because the state is the owner of the claim and
the real party in interest, and the state was not a
party to the arbitration agreement.’ (Correia, supra,
32 Cal.App.5th at p. 622.) [¶] Characterizing the process as resolving only an ‘arbitrability,’ ‘delegatable’
or ‘gateway’ issue, or the adjudication of an ‘antecedent’ fact, does not extinguish the risk to the state that
it is an arbitrator, not a court, who nullifies the state’s
PAGA claim.” (Contreras, at p. 474.)
Finally, defendant contends its case is different
from authorities holding that a “single cause of action
under PAGA cannot be split into an arbitrable ‘individual claim’ and a nonarbitrable representative
claim.” (Williams v. Superior Court (2015) 237
Cal.App.4th 642, 645; see, e.g., Hernandez v. Ross
Stores, Inc. (2016) 7 Cal.App.5th 171, 178 [“determination of whether the party bringing the PAGA action
is an aggrieved party should not be decided separately
by arbitration”].) The difference, defendant says, is
that in Williams and Hernandez, the threshold question was whether the plaintiff was “aggrieved” (that
is, subjected to a Labor Code violation), not whether
the plaintiff was an “employee.” But, as we have just
seen, the Contreras case presented the identical
threshold issue of employee status, and so did Provost.
And both resolved the issue adversely to defendant’s
position. (Contreras, supra, 61 Cal.App.5th at p. 474;
id. at p. 477 [“a PAGA plaintiff may not be compelled

12a
to arbitrate whether he or she is an aggrieved employee”]; Provost, supra, 55 Cal.App.5th at p. 988 [the
employer “cannot require [the plaintiff] to submit by
contract any part of his representative PAGA action
to arbitration”; “a PAGA-only representative action is
not an individual action at all, but instead is one that
is indivisible and belongs solely to the state”].)
DISPOSITION
The order is affirmed. Plaintiff shall recover
costs of appeal.
GRIMES, Acting P. J.
WE CONCUR:
STRATTON, J.
OHTA, J. *

Judge of the Los Angeles Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.
*

13a
APPENDIX C
SUPERIOR COURT
OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
March 12, 2020
________________________
DAMARIS ROSALES, individually
and on behalf of all others
similarly situated,
Plaintiff,
vs.
UBER TECHNOLOGIES, INC.,
and Does 1-50,
Defendants.
________________________
Case No : BC685555
ORDER DENYING DEFENDANT’S MOTION
TO COMPEL ARBITRATION
Hearing Date: March 12, 2020
Hearing Time: 11:00 a.m.
Dept: 7
________________________
Defendant Uber Technologies, Inc. (“Uber”)
moves this Court to compel Plaintiff Damaris Rosales
(“Rosales”) to arbitrate the issue of whether she is an
“aggrieved employee” within the meaning of the California Labor Code Private Attorneys General Act of
2004.
For the following reasons, the Court DENIES
Uber’s motion to compel arbitration.

14a
I.

Procedural History

On December 4, 2017, Rosales 1 filed a Class Action Complaint against Uber 2 alleging five causes of
action. On April 6, 2018, she amended her Complaint
by dismissing the five class action allegations and alleging only a representative action as an “aggrieved
employee” seeking civil penalties on behalf of herself
and other current and former Uber employees under
the California Labor Code Private Attorneys General
Act of 2004 (“PAGA”). (First Amended Complaint
(“FAC”), 2, 7; Joint Stipulation and Proposed Order,
Dec. 4, 2017, 1:9-11.)
Uber twice unsuccessfully demurred to the
FAC. Uber first demurred that, among other things,
Rosales failed to plead that “she had an employment
relationship with Uber.” (Demurrer (Jun. 1, 2018) 2.)
The Court overruled Uber’s demurrer, finding that
“[f]or pleading purposes, Rosales’s allegations that
she is an ‘aggrieved employee’ are sufficient.” (Order
Overruling Defendant’s Demurrer (Jul. 31, 2018) 1.)
Uber then unsuccessfully appealed the court’s order
overruling its demurrer. (Joint Status Conference
Statement (Oct. 22, 2019) 1.) Uber demurred a second
time that Rosales failed to provide notice to Uber and
the California Labor and Workforce Development
Agency. This Court overruled Uber’s second demurrer. (Order Overruling Defendant’s Renewed Demurrer (May 16, 2019.)
Uber now moves this Court to compel Rosales
to arbitrate the issue of whether she is an “aggrieved
The Court DENIES Rosales’s request for judicial notice of
Exhibit 7, the “Littler lawfirm webpage.” The Court GRANTS
Rosales’s all other requests for judicial notice.
1

2

The Court GRANTS Uber’s requests for judicial notice.

15a
employee” within the meaning of PAGA. Rosales opposes Uber’s motion.
II.

Statement of Facts

Rosales signed up to use Uber’s “Uber Rides
App” as a driver on or around March 25, 2016. (Rosenthal Decl.,¶ 12.) All drivers at the time were required
to first enter into a Technology Services Agreement
(“TSA”) with Rasier-CA, LLC, a wholly-owned Uber
subsidiary. (Id. at ¶¶ 4, 8.) The TSA contains an Arbitration Provision, of which drivers have an opportunity to opt-out. (Id. at ¶ 13.) Rosales accepted the
TSA on March 28, 2016. (Id. at ¶ 12.) She did not opt
out of the Arbitration Provision. (Id. at ¶ 13.)
The TSA’s Arbitration Provision reads, in relevant part:
IMPORTANT: This Arbitration Provision
will require you to resolve any claim that you
may have against the Company or Uber on an
individual basis, except as provided below,
pursuant to the terms of the Agreement unless you choose to opt out of the Arbitration
Provision. Except as provided below, this provision will preclude you from bringing any
class, collective, or representative action
(other than actions under the Private Attorneys General Act of 2004 (“PAGA”), California
Labor Code § 2698 et seq. (“PAGA”)) against
the Company or Uber, and also precludes you
from participating in or recovering relief under any current or future class, collective, or
representative (non-PAGA) action brought
against the Company or Uber by someone
else.
***

16a
This Arbitration Provision is governed by the
Federal Arbitration Act, 9 U.S.C. § 1 et seq.
(the “FAA”) and evidences a transaction involving interstate commerce. This Arbitration Provision applies to any dispute arising
out of or related to this Agreement or termination of the Agreement and survives after
the Agreement terminates. Nothing contained in this Arbitration Provision shall be
construed to prevent or excuse you from utilizing any informal procedure for resolution of
complaints established in this Agreement (if
any), and this Arbitration Provision is not intended to be a substitute for the utilization of
such procedures.
Except as it otherwise provides, this Arbitration Provision is intended to apply
to the resolution of disputes that otherwise would be resolved in a court of law
or before any forum other than arbitration, with the exception of proceedings
that must be exhausted under applicable
law before pursuing a claim in a court of
law or in any forum other than arbitration. Except as it otherwise provides,
this Arbitration Provision requires all
such disputes to be resolved only by an
arbitrator through final and binding arbitration on an individual basis only and
not by way of court or jury trial, or by
way of class, collective, or representative action.
Except as provided in Section 15.3(v), below,
regarding the Class Action Waiver, such disputes include without limitation disputes

17a
arising out of or relating to interpretation or
application of this Arbitration Provision, including the enforceability, revocability or validity of the Arbitration Provision or any portion of the Arbitration Provision. All such
matters shall be decided by an Arbitrator and
not by a court or judge. However, as set forth
below, the preceding sentences shall not apply
to disputes relating to the interpretation or
application of the Class Action Waiver or
PAGA Waiver 3 below, including their enforceability, revocability or validity.
Except as it otherwise provides, this Arbitration Provision also applies, without limitation, to all disputes between You and the
Company or Uber, as well as all disputes between You and the Company’s or Uber’s fiduciaries, administrators, affiliates, subsidiaries, parents, and all successors and assigns of
any of them, including but not limited to any
disputes arising out of or related to this
Agreement and disputes arising out of or related to your relationship with the Company,
including termination of the relationship.
This Arbitration Provision also applies, without limitation, to disputes regarding any city,
county, state or federal wage-hour law, trade
secrets, unfair competition, compensation,
breaks and rest periods, expense reimbursement, termination, harassment and claims
arising under the Uniform Trade Secrets Act,
Because the Court finds that the Arbitration Provision does
not require Rosales to arbitrate her PAGA claim, the Court declines to reach the merits of whether the Arbitration Provision’s
“PAGA Waiver” is valid.
3

18a
Civil Rights Act of 1964, Americans With Disabilities Act, Age Discrimination in Employment Act, Family Medical Leave Act, Fair Labor Standards Act, Employee Retirement Income Security Act (except for individual
claims for employee benefits under any benefit plan sponsored by the Company and covered by the Employee Retirement Income Security Act of 1974 or funded by insurance),
Genetic Information Non-Discrimination Act,
and state statutes, if any, addressing the
same or similar subject matters, and all other
similar federal and state statutory and common law claims. This Agreement is intended
to require arbitration of every claim or dispute that lawfully can be arbitrated, except
for those claims and disputes which by the
terms of this Agreement are expressly excluded from the Arbitration Provision.
(Rosenthal Decl., Exh. C, §§ 15.3, 15.3(i) (bolding original).)
III.

Uber Fails to Meet Its Burden of Proving
that an Arbitration Agreement Exists Between It and the State of California, on
Whose Behalf Rosales Asserts Her PAGA
Claim

Uber moves to compel Rosales to arbitrate the
issue of whether she is an “aggrieved employee”
within the meaning of PAGA, California Labor Code §
2698 et seq.
The party moving to compel arbitration “bears
the burden of proving the existence of a valid arbitration agreement by a preponderance of the evidence,
while a party opposing the petition bears the burden

19a
of proving by a preponderance of the evidence any fact
necessary to its defense.” (Ruiz v. Moss Bros. Auto
Group, Inc. (2014) 232 Cal.App.4th 836, 842.) The
trial court sits as the trier of fact, weighing all the affidavits, declarations, and other documentary evidence, and any oral testimony the court may receive
at its discretion, to reach a final determination.”
(Ibid.) The party seeking to compel arbitration generally meets its initial burden of proving an arbitration
agreement exists by attaching a copy of the agreement
to the motion or petition to compel arbitration. (Hotels Nevada v. L.A. Pacific Center, Inc. (2006) 144
Cal.App.4th 754, 764-65; Cal. R. Ct., Rule 3.1330.)
“California contract law applies to determine
whether the parties formed a valid agreement to arbitrate.” (Mitri v. Arnel Management Co. (2007) 157
Cal.App.4th 1164, 1170.) The parties’ consent to contract is an essential contract component. (Cal. Civ.
Code § 1550.)
A PAGA claim “is a dispute between an employer and the state, which alleges directly or through
its agents – either the Labor and Workforce Development Agency or aggrieved employees – that the employer has violated the Labor Code.” (Iskanian v. CLS
Transportation Los Angeles, LLC (2014) 59 Cal.4th
348, 386-87 (italics original).) A private party cannot
bring a PAGA claim solely on its behalf; instead, it
brings the suit in a “representative capacity” on the
State of California’s behalf. (Reyes v. Mary’s, Inc.
(2011) 202 Cal.App.4th 1119, 1124 [holding that
“[b]ecause the PAGA claim is not an individual claim,
it was not within the scope of [the employer’s] request
that individual claims be submitted to arbitration. . . .” (second bracketed insertion original)].) The
representative private party’s agreement to arbitrate

20a
is “not relevant” to a PAGA claim because the party
represents the state and the “state is not bound” by
the agreement. (Betancourt v. Prudential Overall
Supply (2017) 9 Cal.App.5th 439, 448.)
An employee “cannot be compelled to submit
any portion of his representative PAGA claim to arbitration, including whether he was an ‘aggrieved employee.’” (Williams v. Superior Court (2015) 237
Cal.App.4th 642, 649; Hernandez v. Ross Stores, Inc.
(2016) 7 Cal.App.5th 171, 178 [affirming trial court’s
denial of a motion to compel arbitration of the issue of
whether plaintiff was a PAGA “aggrieved employee”].)
Here, Uber submits with its motion a copy of
the TSA. (Rosenthal Decl., Exh. C.) Uber also submits images of the smartphone screens on which aspiring Uber drivers enter into the TSA. (Id. at Exhs.
A, B.) Uber’s Director of Strategic Operational Initiatives explains:
“To advance past the screen that contains
the link to the [TSA], the driver has to click
‘YES, I AGREE’ to the applicable agreement.
Directly above “YES I AGREE,” the Uber
Rides App states the following: “By clicking
below, you represent that you have reviewed
all the documents above and that you agree to
all the contracts above.” After clicking “YES,
I AGREE,” the driver is prompted to confirm
acceptance a second time. On the second
screen, the Uber Rides App states the following: “PLEASE CONFIRM THAT YOU HAVE
REVIEWED ALL THE DOCUMENTS AND
AGREE TO ALL THE NEW CONTRACTS.”
(Rosenthal Decl., ¶ 9.)

21a
Lastly, Uber submits an electronic receipt
showing Rosales accepted the TSA. (Rosenthal Decl.,
Exh. D.) “This receipt only could have been generated
by someone using Rosales’s unique username and
password and hitting “YES, I AGREE” twice . . .” (Id.
at ¶ 12.)
However, Uber fails to submit any evidence
showing that the State of California entered into the
TSA. Rosales is bringing her PAGA claim on the
State’s behalf, and the State is not bound by the TSA.
As Uber acknowledges, “[o]rdinary state law principles governing the formation of contracts are used to
determine whether the parties agreed to arbitrate.”
(Motion, 15-16.) The parties’ consent to contract is an
essential contract component. (Cal. Civ. Code § 1550.)
Uber lacks evidence that the State of California consented to the Arbitration Provision.
Uber asks the Court to enforce the TSA’s clause
delegating to the arbitrator “disputes arising out of or
relating to interpretation or application of this Arbitration Provision, including the enforceability,
revocability, or validity of the Arbitration Provision or any portion of the Arbitration Provision.” (Motion, 14:20-23 (emphasis original) [citing
Rosenthal Decl., Exh. C, § 15.3(i)].) However, no part
of the TSA, including the delegation provision, binds
the State of California, on whose behalf Rosales brings
the PAGA claim.
Uber misinterprets a PAGA claim’s nature by
moving the Court to “enforce the agreement between
the parties.” (Motion, 14:20-23.) The TSA that
Rosales entered into with Uber is “not relevant” to
Rosales’s PAGA claim because Rosales is acting on the
State’s behalf, and the State did not consent to, and

22a
thus is not bound by, the TSA — including its Arbitration Provision. (Betancourt v. Prudential Overall Supply, supra, at p. 448.)
Several of Uber’s authorities on delegating arbitrability issues to the arbitrator are not on point because they do not involve PAGA claims. (AT&T. Technologies, Inc. v. Communication Workers of America
(1986) 475 U.S. 643 [collective bargaining dispute],
Rent-A-Center, West, Inc. v. Jackson (2010) 561 U.S.
63 [federal employment discrimination suit]; Aanderud v. Superior Court (2017) 13 Cal.App.5th 880,
884 [alleged home improvement and home solicitation
law violations]; Henry Schein, Inc. v. Archer & White
Sales, Inc. (2019) 139 S.Ct. 524, 528 [federal and state
antitrust violations]; Lee v. Uber Technologies, Inc.
(2016) 208 F.Supp.3d 886, 888 [various Illinois state
law claims]; Johnson v. Uber Technologies (N.D. Cal.
2019) 2019 WL 4417682, 1 [federal WARN Act violation]; Ali v. Vehi-Ship (N.D. Illinois 2017) 2017 WL
5890876 [federal and Illinois state labor law violations]; Epic Systems Corp. v. Lewis (2018) 138 S.Ct.
1612, 1616 [National Labor Relations Act violations].)
None of these cases involve a cause of action brought
by a private employee on the state’s behalf, as with a
PAGA claim.
Uber’s authorities involving PAGA claims are
distinguishable. Mohamed v. Uber Technologies, Inc.
(2016) 848 F.3d 1201, 1208 found that an arbitration
agreement delegated to an arbitrator the issue of
whether a PAGA waiver was enforceable, whereas
here the issue is whether Rosales is an “aggrieved employee” within PAGA’s meaning. O’Connor v. Uber
Technologies, Inc. (2018) 904 F.3d 1087, fn. 2 (citing
Mohamed v. Uber Technologies, Inc., supra, at p.

23a
1212-14) affirmed the trial court’s order denying “delegation of the California’s Private Attorneys General
Act (“PAGA”) claims to the arbitrator . . . .” where the
arbitration agreement “clearly and unmistakably delegated the question of arbitrability to the arbitrator
except as pertained to the arbitrability of class action,
collective action, and representative claims,” including
PAGA claims. Esparza v. KS Industries, L.P. (2017)
13 Cal.App.5th 1228, 1247 affirmed the non-arbitrability of PAGA claims and arbitrability of private
claims to recover unpaid wages.
Uber also ignores the Williams v. Superior
Court, supra, at p. 649 holding’s plain language that
plaintiff “cannot be compelled to submit any portion of
his representative PAGA claim to arbitration, including whether he was an ‘aggrieved employee.’” The
Williams court dismissed the argument, similar to
Uber’s, that whether Rosales is an “aggrieved employee” is not part of the PAGA claim but an “underlying controversy.” (Ibid.) The court found “no legal
authority” that supported splitting a PAGA claim into
arbitrable and non-arbitrable elements and reiterated
that a PAGA representative plaintiff “does not bring
the PAGA claim as an individual claim, but ‘as the
proxy or agent of the state’s labor law enforcement
agencies.” (Ibid. [citing Reyes v. Macy’s, Inc., supra,
at p. 1123].)
In sum, Uber fails to meet its initial burden of
establishing, by a preponderance of the evidence, that
an arbitration agreement exists between it and the
State of California, on whose behalf Rosales asserts
her PAGA claim.

24a
IV.

Conclusion

The Court DENIES Uber’s motion to compel
Rosales to arbitrate.

Dated: _3/12/2020_____
__/s/ Amy D. Hogue_________
AMY D. HOGUE
JUDGE OF THE
SUPERIOR COURT

25a
APPENDIX D
Statutory Provisions Involved
9 U.S.C. § 2. Validity, irrevocability, and enforcement of agreements to arbitrate
A written provision in any maritime transaction or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy thereafter arising out of such contract or transaction, or the
refusal to perform the whole or any part thereof, or an
agreement in writing to submit to arbitration an existing controversy arising out of such a contract,
transaction or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist at law or
in equity for the revocation of any contract.
(July 30, 1947, ch. 392, 61 Stat. 670.)

26a
California Labor Code § 2699
(a) Notwithstanding any other provision of law, any
provision of this code that provides for a civil penalty
to be assessed and collected by the Labor and Workforce Development Agency or any of its departments,
divisions, commissions, boards, agencies, or employees, for a violation of this code, may, as an alternative,
be recovered through a civil action brought by an aggrieved employee on behalf of himself or herself and
other current or former employees pursuant to the
procedures specified in Section 2699.3.
(b) For purposes of this part, “person” has the same
meaning as defined in Section 18.
(c) For purposes of this part, “aggrieved employee”
means any person who was employed by the alleged
violator and against whom one or more of the alleged
violations was committed.
(d) For purposes of this part, “cure” means that the
employer abates each violation alleged by any aggrieved employee, the employer is in compliance with
the underlying statutes as specified in the notice required by this part, and any aggrieved employee is
made whole. A violation of paragraph (6) or (8) of subdivision (a) of Section 226 shall only be considered
cured upon a showing that the employer has provided
a fully compliant, itemized wage statement to each aggrieved employee for each pay period for the threeyear period prior to the date of the written notice sent
pursuant to paragraph (1) of subdivision (c) of Section
2699.3.
(e)
(1) For purposes of this part, whenever the Labor and Workforce Development Agency, or any
of its departments, divisions, commissions,

27a
boards, agencies, or employees, has discretion
to assess a civil penalty, a court is authorized to
exercise the same discretion, subject to the
same limitations and conditions, to assess a
civil penalty.
(2) In any action by an aggrieved employee
seeking recovery of a civil penalty available under subdivision (a) or (f), a court may award a
lesser amount than the maximum civil penalty
amount specified by this part if, based on the
facts and circumstances of the particular case,
to do otherwise would result in an award that
is unjust, arbitrary and oppressive, or confiscatory.
(f) For all provisions of this code except those for which
a civil penalty is specifically provided, there is established a civil penalty for a violation of these provisions, as follows:
(1) If, at the time of the alleged violation, the
person does not employ one or more employees,
the civil penalty is five hundred dollars ($500).
(2) If, at the time of the alleged violation, the
person employs one or more employees, the civil
penalty is one hundred dollars ($100) for each
aggrieved employee per pay period for the initial violation and two hundred dollars ($200)
for each aggrieved employee per pay period for
each subsequent violation.
(3) If the alleged violation is a failure to act by
the Labor and Workplace Development Agency,
or any of its departments, divisions, commissions, boards, agencies, or employees, there
shall be no civil penalty.

28a
(g)
(1) Except as provided in paragraph (2), an aggrieved employee may recover the civil penalty
described in subdivision (f) in a civil action pursuant to the procedures specified in Section
2699.3 filed on behalf of himself or herself and
other current or former employees against
whom one or more of the alleged violations was
committed. Any employee who prevails in any
action shall be entitled to an award of reasonable attorney’s fees and costs, including any filing fee paid pursuant to subparagraph (B) of
paragraph (1) of subdivision (a) or subparagraph (B) of paragraph (1) of subdivision (c) of
Section 2699.3. Nothing in this part shall operate to limit an employee’s right to pursue or recover other remedies available under state or
federal law, either separately or concurrently
with an action taken under this part.
(2) No action shall be brought under this part
for any violation of a posting, notice, agency reporting, or filing requirement of this code, except where the filing or reporting requirement
involves mandatory payroll or workplace injury
reporting.
(h) No action may be brought under this section by an
aggrieved employee if the agency or any of its departments, divisions, commissions, boards, agencies, or
employees, on the same facts and theories, cites a person within the timeframes set forth in Section 2699.3
for a violation of the same section or sections of the
Labor Code under which the aggrieved employee is attempting to recover a civil penalty on behalf of himself
or herself or others or initiates a proceeding pursuant
to Section 98.3.

29a
(i) Except as provided in subdivision (j), civil penalties
recovered by aggrieved employees shall be distributed
as follows: 75 percent to the Labor and Workforce Development Agency for enforcement of labor laws, including the administration of this part, and for education of employers and employees about their rights
and responsibilities under this code, to be continuously appropriated to supplement and not supplant
the funding to the agency for those purposes; and 25
percent to the aggrieved employees.
(j) Civil penalties recovered under paragraph (1) of
subdivision (f) shall be distributed to the Labor and
Workforce Development Agency for enforcement of labor laws, including the administration of this part,
and for education of employers and employees about
their rights and responsibilities under this code, to be
continuously appropriated to supplement and not supplant the funding to the agency for those purposes.
(k) Nothing contained in this part is intended to alter
or otherwise affect the exclusive remedy provided by
the workers’ compensation provisions of this code for
liability against an employer for the compensation for
any injury to or death of an employee arising out of
and in the course of employment.
(l)
(1) For cases filed on or after July 1, 2016, the
aggrieved employee or representative shall,
within 10 days following commencement of a
civil action pursuant to this part, provide the
Labor and Workforce Development Agency
with a file-stamped copy of the complaint that
includes the case number assigned by the court.
(2) The superior court shall review and approve
any settlement of any civil action filed pursuant

30a
to this part. The proposed settlement shall be
submitted to the agency at the same time that
it is submitted to the court.
(3) A copy of the superior court’s judgment in
any civil action filed pursuant to this part and
any other order in that action that either provides for or denies an award of civil penalties
under this code shall be submitted to the
agency within 10 days after entry of the judgment or order.
(4) Items required to be submitted to the Labor
and Workforce Development Agency under this
subdivision or to the Division of Occupational
Safety and Health pursuant to paragraph (4) of
subdivision (b) of Section 2699.3, shall be transmitted online through the same system established for the filing of notices and requests under subdivisions (a) and (c) of Section 2699.3.
(m) This section shall not apply to the recovery of administrative and civil penalties in connection with the
workers’ compensation law as contained in Division 1
(commencing with Section 50) and Division 4 (commencing with Section 3200), including, but not limited
to, Sections 129.5 and 132a.
(n) The agency or any of its departments, divisions,
commissions, boards, or agencies may promulgate
regulations to implement the provisions of this part.
(Amended by Stats. 2016, Ch. 31, Sec. 189. (SB 836)
Effective June 27, 2016.)

